HHS/OIG-Audit--"Follow-up Review of the Food and Drug Administration's Generic Drug Management Information System, (A-15-91-00026)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of the Food and Drug Administration's Generic Drug
Management Information System," (A-15-91-00026)
October 26, 1992
Complete Text of Report is available in PDF format
(1.8 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our follow-up review of the
Food and Drug Administration's (FDA) progress in implementing recommendations
contained in a prior report issued in July 1990. In that report we made recommendations
on how the generic drug management information system could be better used by
FDA to improve management and oversight of the generic drug review and approval
process. Although the FDA has taken certain actions to implement the recommendations
made in the previous report, more needs to be done. In the follow-up report
we have made several recommendations to further improve the generic drug management
information system.